HHS/OIG, Audit -"Commonwealth of Pennsylvania, Efforts to Account For and Monitor Sub-Recipients' Use of Public Health Preparedness and Response For Bioterrorism Program Funds,"(A-03-03-00381)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Commonwealth of Pennsylvania, Efforts to Account For and Monitor Sub-Recipients' Use of Public Health Preparedness
and Response For Bioterrorism Program Funds," (A-03-03-00381)
October 15, 2003
Complete
Text of Report is available in PDF format (320 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether the Pennsylvania
Department of Health (State agency) properly recorded, summarized and reported bioterrorism preparedness transactions
by specific focus area designated in the cooperative agreements and whether the
State agency has established controls and procedures to monitor sub-recipients expenditures of Centers for Disease Control
and Prevention funds.  We found that the State agency generally accounted for Program funds in accordance
with the terms and conditions of the cooperative agreements and applicable departmental regulations and guidelines.  The
State agency had a system to track and monitor sub-recipient activities; such as, application
and award processes, grant conditions, ongoing fiscal activities, and reporting.  In addition, the State agency
was planning to add reviews of Program funds to current audits performed on sub-recipients.  Although the State
agency had not completed any reviews of Program funds, we believe that review of those funds by the State agency, as
part of the sub-recipient audit process, combined with the current system, will provide adequate monitoring and oversight
of its sub-recipients.